No.

IN THE
SUPREME COURT OF THE UNITED STATES

ARTHUR O. ARMSTRONG

— PETITIONER
(Your Name)
WILSON COUNTY, CALVIN WOODARD, NASH COunTY
KEi i H STONE, MAGISTRATE'S OFFICE,

— RESPONDENT(S)

JOHN DOE and QUENTIN T. SUMNER.

ON PETITION FOR A WHIT OF CERTIORARI TO

THE UNITED STATES COURT OF APPEALS FOR THE FOURTH CIRCUIT

(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI
ARTHUR O. ARMSTRONG

(Your Name)
8113 PLEASANT HILL ROAD
!

(Address)

i
L

ELM CITY, NORTH CAROLINA 27822

(City, State, Zip Code)
252-236-7912

(Phone Number)

RECEIVED
APR 2 0 2020
OFFICE OF THE CLERK
SUPREME COURT. U.S.

RECEIVED
APR I - 2020

QUESTIONS PRESENTED
1. Did trial court deprive the petitioner of his constitutional rights when he denied
petitioner total access to the court when he denied the petitioner to file any thing
including, the Complaint, motion for summary judgment, pursuant to Rule 56 (a) and
Rule 15(a), if necessary, to deprive the petitioner of liberty and property without due
process of law when petitioner's civil case was dismissed in violation of the Fourth
Fourteenth Amendments to the Constitution of the United States.

and

2. Whether trial court acted with active connivance in the making of the frivolous
complaint false reports and other conduct amounting to official discrimination clearly
sufficient to constitute denial of rights protected by the Equal Protection Clause to
deprive the petitioner of liberty and property without due process of law when
respondent dismissed petitioner's civil case in violation of the Fourth and Fourteenth
Amendments to the Constitution of the United States.
3.

Whether respondent United States Court of Appeals acted with

active
connivance in the making of the certification false reports and other conduct
amounting to official discrimination dearly sufficient to constitute denial of rights
protected by the Equal Potection Clause to deprive the petitioner of property and
liberty without due process of law when respondent denied petitioner's motion for
relief, pursuant to Rule 27(a)(2) of the Federal Rules of Appellate Procedure to deny
petitioner's lawsuit in violation of the Fourth and Fourteenth Amendnents to the
Constitution of the United States.
4. Whether respondent trial court failed to conform to the requirements of the
Federal constitution and laws of the United States when respondent acted with reckless
indifference and wanton disregards for the truth or falsity and the rights of petitioner
and others when respondents denied petitioner's motion for relief, pursuant to Rule
60(b)(6) of the Federal Rules of Civil Procedure to deny the petitioner's civil rights
lawsuit without due process of law in violation of the Fourth and Fourteenth
Amendments to the Constitution of the United States.
5. Whether trial court barred the petitioner total access to the federal court to deny
petitioner's meritorious and viable case to deny petitioner's civil rights lawsuit or any
right and privilege as a citizen of the United States.
6.

Whether respondents trial court and respondent Court of appeals' conduct satified due

r

* +

i;

process of law.
7.

Whether the respondents violate the Civil Rights Act of 1875.

8. Whether trial court's proceeeding or the lack thereof epitomized to kill a mockingbird
that took place in Alabama in 1936.

m
UST OF PARTIES

W All pasties appear in fee caption of fee ease on fee cover page.
[ ] All parses il@ not appear in fee caption of fee case on fee cover page^ A 1st of'
all parties to fee proceeding in fee court wkose judgment is fee subject of feis
petition is as follows:

RELATE© CASES
Armstrong v. Cahrni Woodard, No. 1^-330^ UJi. District Court fertile Astern
District of North
Carolina, Judgmerit entered August IS, ?niQ

Thera is Ka parent m
stock.

^

M%
osr more of the corporate

*

Jy
TABLE OF CONTENT
Page
Questions Presented

i

Disclosure statement

iii

Table of content

iv

Authorities cited

v

Opinion below

1

Jurisdiction statement

2

Constitutional and statutory provision involved

3

Statement of the case

4

Reason for granting petition

11

Conclusion

15
INDEX TO APPENDIX

APPENDIX A: On January 21, 2020, the United States Court of Appeals for the Fourth
Circuit denied petitioner's motion for relief, pursuant to Rule 27 (a)(2) of the Federal
Rules of Appellate Procedure without due process of law.
APPENDIX B: On August 16, 2019, trial court dismissed petitioner's civil rights case
without due process of law in violation of the Fourth and Fourteenth Amendments to
the Constitution of the United States.
APPENDIX C: On February 25, 2020, a timely petition for rehearing was denied without
due process of law in violation of the Fourth and Fourteenth Amendments to the
Constitution of the United States.
APPENDIX D: The constitutional and statutory provisions involved in the case set out
verbatin with appropriate citation.

V
TABLE OF AUTHORITIES CITED
CASES

PAGE NUMBER

Armstrong v Calvin Woodard, et al 19-cv-330

Armstrong v Calvin Woodard, et a! 19-362

STATUTE AND RULES

42 U.S.C.S. 1985-1986

3,6,8

Rule 4

Rule 15(a)

9
U1

Rule 56(a)

i,5

Rule 60(b)(6)

1,6,11

Rule 27 (a)(2)

i.9,11

OTHER
Civil Rights Act of 1875........

ii,14

To kill Mockingbird epitomy

ii

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINSONS BELOW
[ ] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is
; or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
|K] is unpublished.

A— to

B__to

The opinion of the United States district court appears at Appendix
the petition and is
; or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
(X] is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix____ to the petition and is
—; or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
[ 3 is unpublished.
The opinion of the_
appears at Appendix

court
to the petition and is

; or,
[ 3 reported at-----[ 3 has been designated for publication but is not yet reported; or,
[ 3 is unpublished.
1.

JURISDICTION

IK] For cases from federal courts:
The date on which the United States Court of Appeals decided mv case
was _ J luary 21, 2020
__
[ ] No petition for rehearing was timely filed in my case.
IK] A timely petition for rehearing was denied bv the United States Court of
Appeals on the following date: February 25,2020
__ , and a copy of the
order denying rehearing appears at Appendix _ —___
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including______
(date) on
(date)
in Application No. __ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix_______
[ ] A timely petition for rehearing was thereafter denied on the following date:
______________________ , and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) on
(date)in
Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

%

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

CONSTITUTIONAL PROVISIONS
Fourth Amendment
Fourteenth Amendment
STATUTORY PROVISIONS

28U.S.C. 1254(1]
28 U.S.C. 1291
28U.S.C. 1746
42 U.S.C. 1983
42 U.S.C. 1985
42 U.S.C. 1986
42 U.S.C. 1985(3)

'3

STATEMENT OF THE CASE
1.

This case is very easy. Petitioner resides in the City of Elm City, North Carolina 27822. On

February 12,13, 2019, Respondents acted with racial profiling (Fourth and Fourteenth Amendments
violations). Trespassed on private property (Fourth and Fourteenth Amendments violations). Made an
entry without a warrant (Fourth and Fourteenth Amendments violations). Arrested petitioner (Fourth
and Fourteenth Amendments violations). Handcuffed him (Fourth and Fourteenth Amendments
violations). Hauled him down to the magistrate's office (Fourth and Fourteenth Amendments
violations). Placed him under a $13,000.00 cash bond (Fourth and Fourteenth Amendments violations).
Assaulted him (Fourth and Fourteenth Amendments violations). Searched and seized his property
(Fourth and Fourteenth Amendments violations). Detained petitioner over night in Wilson
County jail (Fourth and Fourteenth Amendments violations). Made some falsities (Fourth and
Fourteenth Amendments violations). Acted in a conspiracy (Fourth and Fourteenth Amendments
violations). Searched and seized his property. (Fourth and Fourteenth Amendments violations). Invaded
his privacy (Fourth and Fourteenth Amendments violations). Kidnapped him (Fourth and Fourteenth
Amendments violations).
In actuality, for ail practical purposes, petitioner was never allowed in federal court; was totally
denied access to federal court and this is how they did it.
2.

On August 1, 2019, petitioner paid the clerk of court $450.00 and submitted his complaint

pursuant to the permanent prefiling injunction, (submitted, but not filed stamped RECEIVED)
3.

On August 5, 2019, After trial court examined the document with an eagle's eye, or maybe

not at all, and realized that the case was actually good for an offensive summary judgment motion, (By
the rule, with surmountable evidence, case could not or need not go to trial on the merits. Was ripe
for settlement. The case was over before it got started, just like winning a lottery; knew the petitioner
was winning, with solid evidence that couldn't be disputed, a trial would simply be a waste of time and
costly. Moot: Trial court blocked petitioner's motion for summary judgment when trial court directed
respondent clerk that motion for summary judgment was not permitted in that the petitioner's

1-

complaint was the only document allowed. (Respondent did not allow that either, said RECEIVED or
some such thing). No motions. Figuratively speaking, petitioner said, "My motion for summary judgment
would blow the respondents out of the water - losing big time." Told petitioner, he was out of control
and could be found in comtempt of court. Of bringing a viable and meritorious complaint for summry
judgment, of which trial court knew, or should have known, trial court refused to permit issurance of
summonses to the respondents to gaurantee the deprivation of rights privileges and amenties secured
by the federal constitution and laws of the United States when he acted with active connivance in the
making of the frivolous complaint false reports and other conduct amounting to official discrimination
clearly sufficient to constitute denial of rights protected by the Equal Protection Clause to deprive
petitioner of federal Rules of Civil Procedure; thus deprived petitioner the right to file motion for
su.mm.ay judgment, pursuant to Rule 56 (a) of the Federal Rules of Civil Procedure when motion for
summary judgment could be filed any time when trial court denied petitioner total access to the court
without due process of law in violation of the Fourth and Fourteenth Amendments to the Constitution
of the United States.
4.

On August 16, 2019, trial court, without probable cause, without any facts acted with

malice, arbitrariness, fraud, falsity, capriciousness, racketeering, trickery, pattern of racketeering activity
and conspiracy when trial court perportedly dismissed petitioner's viable complaint and denied his
motion without a hearing in violation of the Fourth and Fourteenth Amendments to the Constitution of
the United States. That trial court acted with reckless indifference and wanton disregard for the truth or
falsity and the rights of petitioner and others when trial court denied petitioner's motion for summary
judgment when trial court denied petitioner total access to the court without probable cause when trial
court acted with active connivance in the making of the frivolous complaint false reports and other
conduct amounting to official discrimination clearly sufficient to constitute denial of right protected by
the Equal Protection Clause to deprive petitioner of judgment pursuant to Rule 56 (a) of the Federal
Rules of Civil Procedure.

5

5.

On or about August 20, 2019, petitioner filed a Rule 60(b)(6) motion for relief when trial court

simply would not consider it at. Said petitioner was restricted from filing any motion. Preposterous! Said
that we can do this to him and he wont know what hit him. Respondent thought petitioner was a fruit
cake or a strawberry.
6.

Respondents Nash and Wilson Counties are duly organized, existing and operating under

the federal constitution and laws of the United States and are liable for a damages judgment entered
against respondents Calvin Woodard, magistrate offices and Keith Stone "in their official capacity" as a
result of an action brought against them under 42 U.S.C.§§1985 & 1986 - Civil Rights Act by Petitioner
who had been violated by their sheriff deputies and magistrate offices for the transgression of the
Fourth and Fourteenth Amendments to the Constitution of the United States.
7,

Respondents Calvin Woodard and Keith Stone are sheriffs of Wilson and Nash counties,

Respectively. John and Jim Does are mgistrates. In an action brought under 42 U.S.C. §§ 1985 and 1986
Civil Rights Act, a judgment entered against respondents in their official capacity "imposes liability on
the counties of Nash and Wilson counties, provided the counties received notice and an opportunity to
respond. Brandon v. Holt (1985 US) 83 L Ed 878, 105 S Ct 873,
8.

The Fifth and Fourteenth Amendments to the Constitution of the United States contain a

due process clause. Due process deals with the administration of justice and thus due process clause
acts as a safeguard from arbitrarily denial of life, liberty or property from the Government outside the
sanction of law. The Supreme Court of the United States interprets the clause more broadly however
because the clause provides four protections: procedural due process (in civil and criminal proceedings),
substantive due process, a prohibition against vague laws and the vehicle for the incorporation of the
Bill of Rights.
9.

The Equal Protection Clause provides that no State shall deny any people within its

jurisdiction the equal protection of the law.
10.

That the conduct complained of was engaged in under color of state law and that such

conduct subjected the plaintiff of the deprivation of rights, privileges and amenities secured by the
federal constitution and laws of the United States while engaged in the conduct complained of.
11

Respondents acted in a conspiracy.

12.

In the furtherance of such a conspiracy, on February 12, 2019, the respondents failed to

conform to the requirements of the federal constitution and laws of the United States when
respondents conspired to go in disguise on the highway and the premise thereof for the purpose of
depriving either directly or indirectly the plaintiff of the equal protection of the law, or of equal
privileges and immunities under the law; or for the purpose of hindering or preventing the constituted
authorities within any State or Territory from giving or securing the petitioner within any State or
Territory the equal protection of the law when respondents, without probable cause acted with reckless
indifference and wanton disregard for the truth or falsity and the rights of petitioner and others when
respondents acted with including but not limited to: arbitrariness, capriciousness, fraud, malice, trickery,
harassment, falsity, gross negligence, deceit, RICO, carjacking, kidnapping, extortion, pattern of
racketeering activity and obstruction of justice when respondent Calvin Wodard trespassed on private
property of petitioner, made an entry without a warrant, searched and seized his property and invaded
his privacy, kidnapped petitioner and hauled him down to the magistrate's office and jailed him without
due process of law in violation of the Fourth and Fourteenth Amendments to the Constitution of the
United States. Respondent Wilson County maistrate judge John Doe acted with active connivance in the
making of the failed to appear false reports and other conduct amounting to official discrimination
clearly sufficient to constitute denial of rights protected by the Equal Protection Clause to deprive
petitioner of liberty and property without due process of law when respondent placed petitioner under
a $13,000.00 cash bond in violation of the Fourth and Fourteenth Amendments to the Constitution of
the United States. On February 13,2019, respondent Keith Stone, sheriff of Nash County came to Wilson
County detention center and arrested the petitioner when he handcuffed the petitioner and placed him
in the cruiser and hauled him to the Nash County Jail, jailed him and detained him for 120 days on failed

7

to appear PWIR false reports and other conduct amounting to official discrimination clearly sufficient to
constitute denial of rights protected by the Equal Protection Clause to deprive the petitioner of libery
and property without due process of law in violation of the Fourth and Fourteenth Amendments to the
Constitution of the United States
13.

Respondent Calvin Woodard trespassed on petitioner's private property. Walked inside

petitioner's trailer without a warrant, took petitioner's arm and pulled/push him out of his trailer; and
hauled him down to the magistrate's office.
14.

Respondent Wilson County magistrate John Doe acted with active connivance in the making

the failed to appear false reports and other conduct amounting to official discrimination. Respondent
Keith Stone, on February 13,2019, came to Wilson County detention center and arrested petitioner
when respondent handcuffed the petitioner and put him in the cruiser and hauled him to Nash County
Jail and detained him for 120 days.
15. Each conspirator had knowledge of the wrongs conspired to be done and had the power to
prevent or aid in preventing the commission of same but refused or neglected so to do.
16. 42 U.S.C. §§1985 prohibits conspiracy to interfere with civil rights and 1986 proscribes
knowing neglect to prevent(or aid or abet after the fact) such a conspiracy.
17. Defendants did some act and omitted some duty and as a result of such conduct plaintiff
was deprived on having and exercising any right or privilege of a citizen of the United States..
18. Defendants aided and abetted after the fact such a conspiracy.
19. As a direct and proximate result of defendants' conspiratorial action, plaintiff suffered
Continuing Injuries, including but not limited to: mental distress, psychic injury, injury to his reputation,
Humiliation, and mental anguish and prayed for judgment in the sum of $125,000,000.00.
20.That the trial court so not wanted to do the right thing, refused the filing fee of $505.00
when clerk refused to file notice of appeal.
WHEREFORE, plaintiff prays for judgment as follows:

&

1.

Compensatory and punitive damages in the sum of $125,000,000.00 under 42 U.S.C.

§§ 85 and 1986 Civil Rights Act.
2.

Intangible harm.

3.

Attorney Fees under 42 U.S.C. §1988 - Attorney's Awards Act, or as a component of

punitive damages.
4.

Costs and expense of this action and such other and further relief as the court deems just

and proper.
Respectfully submitted this the 5th day of March, 2020.

Respectfullvji

irtted,

March 5, 2020
Arthur©. Armstrong, Plaintiff
8113 Pleasant Hill Road
Elm City, NC 27822
Plaintiff demands jury trial on all issues raise by the pleading in this action.
DEMAND JLWYT^L^-^7
March 5, 2020
Arthur Q\An

•ong. Plaintiff

Qn August 30, 2019, petitioner filed notice of appeals, pursuant to Rule 4. appeal as a right - when
taken. On January 21, 2020, respondent United States Court of Appeals for the Fourth Circuit, without
due process of law, denied petitioner's motion for relief, pursuant to Rule 27(a)(2) because district court
did not certify that an appeal from the order and judgment would not be frivolous when trial court
acted with active connivance in the making of the frivolous complaint false reports and other conduct
amounting to official discrimination clearly sufficient to constitute denial of rights protected by the
Equal Protection Clause to deprive petitioner of his complaint without due process of law in violation of
the Fourth and Fourteenth Amendments to the Constitution of the United States.

VERIFICATION
I, Arthur O. Armstrong, being first duly sworn, deposes and says that he is the Petitioner
named in the foregoing matter and that the allegations set forth in the Statement are true and correct
to the best of his knowledge and belief except for those allegations set forth on informatio.

belief

and to those allegations he believes them to be true.
March 5, 2020
ArtjXjr 0. Armstrong, Petitioner
8113 Pl3asant Hill Road
Elm City, NC 27822
AFFIDAVIT OF ARTHUR O. ARMSTRONG
I swear under penalty of perjury under US law that the within and foregoing statement set forth in the
verication are true and correct {28 U.S.C.S 1746.)
March 5, 2020
Arthur Q/lArmstrang, Petitioner
/

to

REASONS FOR GRANTING THE PETITION
This is easy. Petitioner did not have due process. Petitioner did not have due process of law when
trial court denied petitioner total access to the court. Petitioner was denied due process of law when
trial court acted with active connivanve in the making of the frivolous complaint false reports and other
conduct amounting to official discrimination clearly sufficient to constitute denial of right protected by
the Equal Protection Clause to deprive petitioner of his case without due process of law. Petitioner did
not have due process of law when trial court denied petitioner motion for summary judgment when
trial court denied petitioner total access to court. Petitioner did not have due process of law when trial
court denied petitioner’s motion for relief pursuant to Rule 60 (b)(6) of the Federal Rules of Civil
Procedure when trial court denied petitioner total access to the court. Petitioner was denied due
process of law when petitioner was not afforded Rule 15 (a) motion to amend if necessary when trial
court denied petitioner total access to the court. Petitioner was denied due process of law when trial
court failed to file petitioner's complaint and failed to give him a copy of the filed complaint. Petitioner
was denied due process of law when trial court refused to give peritioner the summonses to send
respondents. Petitioner was denied due process when trial court dismissed petitioner's action without a
hearing and on frivolous complaint false reports. Petitioner was denied due process of law when trial
court acted with FRAUD and EXTORTION, when respondent took petitioner's $450.00 and denied
petitioner total access to the court which is in direct contrast to North Carolina District Court
Greensboro Division provided petitioner with copy of filed document, In direct contrast to the United
States District Court for the Eastern District of Pennsylvania provide copy of filed document. United
States District Court for the Eastern District of Virginia which provided copy of filed document.
Petitioner did not have due process of law when respondent court of appeal denied petitioner's
motion for relief, pursuant to Rule 27(a)(2) of the Federal Rules of Appellate Procedure without due
process of law. Petitioner did not have due process of law when Respondent Court of appeals denied
petitioner's case because trial court did not certify that appeal would not be frivolous. That respondent

court of appeals acted with active connivance in the making of the frivolous complaint false reports and
other connduct amounting to official discrimination clearly sufficient to constitute denial of right
protected by the Equal Protection Clause to deprive petitioner of case without due process.
The respondents, both trial court and the 4th circuit court of appeals denied petitioner's motions
for relief, without due process of law, in violation of the Fourth and Fourteenth Amendments to the
Constitution of the United States. Trial court didn't even file petitioner's complaint; stamped RECEIVED;
denied petitioner's motion for relief when district court denied petitioner's total access to the court.
Respondent court of appeals denied petitioner's case on false reports that trial court did not certify that
the complaint would not be frivolous, therefore, if were required, could not possibly certify that
petitioner's appeal would or would not be frivolous when petitioner was denied total access to the
court. And too it would be considered hearsay and hearsay would not be allowed in this Court of
Appeals. That trial court acted with active connivance in the making of the petitioner's viable complaint
frivolous complaint false reports and other conduct amounting to official discrimination clearly
sufficient to constitute denial of rights protected by the Equal Protection Clause to deprive petitioner of
his viable complaint without due process of law in violation of the Fourth and Fourteeenth Amendments
to the Constitution of the United States. And too, petitioner is not required to seek leave to file notice of
appeal -Rule 4, notice of appeal, as a right when taken. And that such appeals court can not deny the
case without due process of law. That the Third Circuit Court of the United States does not require
district court to certify that appeal would not be frivolous. That the United States Court of Appeals For
the Eleventh Circuit does not require district court to certify that an appeals would not be frivolous. The
United States Court of Appeals for the Fifth Curcuit does not require district court to certify that an
appeal would not be frivolous. That something is terribly wrong in the circuit courts and therefore calls
for the exercise of the United States Supreme Court's discretionary jurisdiction. That the Fourth Circuit
Court is not only in conflict with the Third, Fifth and Eleventh Circuit Courts but in conflict within its own
court when it denied petitioner's motion without due process of law because district court did not

\X

certify that petitioner's case would not be frivolous. Or that the Fourth Circuit Court has a due process
policy but departed from its normal procedure to deny petitioner's complaint on false reports that
district court did not certify that petitioner's case would not be frivolous. This is BEG! A State Supreme
court does not require trial court to certify that an appeal from and order or judgment would not be
frivolous.
(a)

United States Court of Appeals for the Fourth Circuit has entered a decision in conflict

with the decision of another United States court of appeals on the same important matter; has decided
an important federal question in a way that conflicts with a decision by a state court of last resort; or
has so far departed from the accepted and usual course of judicial proceedings, or sanctioned such a
departure by a lower court, as to cal! for an exercise of this Court's supervisory power;
(b)

Fourth Circuit Court of Appeals has decided an important federal question in a way that

conflicts with the decision with another state court of last resort or of a United States court of appeals;
(c) The United States Court of Appeals for the Fourth Circuit has decided an important
question of federal law that has not been, but should be, settled by this Court, or has decided an
important federal question in a way that conflicts with relevant decision of this Court.
That the decision of the trial court was wrong when trial court simply denounced petitioner's
citizenship when trial court denied petitioner total access to the United States court when trial court
acted with active connivance in the making of the frivolous complaint false reports and other conduct
amounting to official discrimination clearly sufficient to constitute denial of right protcted by the Equal
Protection Clause to deprive petitioner of his civil right case without due process of law in violation of
the Fourth and Fourteenth Amendments to the Constitution of the United States.
But will be of national importance to have the Supreme Court of the United States to answer
petitioner Arthur O. Armstrong's question — whether trial court denied petitioner's total access to the
Court. Court would have Petitioner on center stage in a sort of like a triumpt, celebration. News flash.
Supreme Court of the United States will hear petitioner Arthur O. Armstrong's case on civil rights. This is

I*

big! This is a stunting victory for Mr. Armstrong. Petitioner Arthur 0. Armstrong is done something, not
only for himself, but for the benefits of all citizens civil rights through the court system through the
procedural and substantive due process rights and the Supreme Court has the discretionary jurisdiction
to do just that; will shape the country and perhaps the world that congress has never and was not able
to do since the establishment of the Civil Rights Acts in 1875.
I have suffered so long, but It is not all about me. That there are other people with similar
situation as petitioner, perhaps millions and millions, would benefit from petitioner's persistance to
have this great Court to exercise its discretionary jurisdiction to decide his case, perhaps before a wide,
wide audience striking down and reversing the decision of the trial court when trial court acted with
active connivance in the making of the frivolous complaint false reports and other conduct amounting to
official discrimination clearly sufficient to constitute denial of rights protected by the Equal Protection
Clause to deprive petitioner of civil rights case without due process of law in violation of the Fourth and
Fourteenth Amendmens to the Constitution of the United States.
With the granting of the petition which is long overdue that petitioner can say "We are free at
last, we are free at last." Granting the petition will be long over due and that it may not come when you
want it but it is right on time. That this is once in a life time. This would change the fabic of the entire
county, perhaps the world. That this court could exercise its appellate jurisdistion. Wouldn't that be
great! That simply petitioner's presence in Washington, DC at the Supreme Court of the United States
would be celebrated by the citizen especially in his community and across the country and perhaps the
world. People will want to know more about me and due process right and how to get it, how to keep it
how to perpetuate it and right now, people don’t seem to know much about it to care because they
don't know due process rights processes and afraid to truly exercise their corollary true citizenship . This
presence will allow people across the country, by seeing petitioner Arthur O. Armstrong standing tall
with self evidence. And that petitioner going to the Supreme Court of the United States will be beamed
around the world. This is BIG!

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,

/£-/ /•"•f/y? £ fj .
Date:

M Pr!t<UA <$. 30 JP

IS

